                                                          ADVISORY




    RECOVERY OVERSIGHT ADVISORY

    Bureau of Land Management Contract with the Chicago
    Horticultural Society




Report No.: ROO-ROA-BLM-3004-2010                           July 2010
        According to page 2 of the Statement of Work, the award was identified as a firm-fixed-
price contract even though the Statement of Work contained a time-and-materials pricing
provision. The Statement of Work states:

         “Monthly intern price” is for 160 working intern hours. Contractor shall adjust the
         price accordingly when any intern’s work hours are less for any reason – such as
         absences due to health, family, personal, or work issues. Contractor shall reduce
         the monthly intern price by a percentage that relates to such absences and is in
         proportion to the number of hours missed over the number “160.” [e.g. number of
         hours missed divided by 160] Hours shall be documented clearly by Contractor on
         the monthly invoices for each intern so that the BLM COR can verify invoice
         pricing based on the monthly intern price and any percentages thereof.

       By providing that the price of the contract could be adjusted based on the level of effort
or hours, this provision is inconsistent with the definition of a firm-fixed-price contract. FAR
16.202-1 states, “A firm-fixed-price contract provides for a price that is not subject to any
adjustment on the basis of the contractor’s cost experience in performing the contract.”

        Inaccurately labeling contract types is not unique to BLM. The Government
Accountability Office (GAO) issued a report on misidentified contracts.1 GAO noted that
officials across government agencies mistakenly assume that the fixed-labor rate in time-and-
materials contracts constitutes a firm-fixed-price contract.

        The contractor previously provided the same services for seven years under cooperative
agreements. Provisions ordinarily incorporated in cooperative agreements were present in this
contract. The period of performance for this contract was from February 24, 2010 to August 14,
2011. Part of this time period precedes the award date of March 11, 2010. While it is permissible
for a recipient to initiate performance before a grant is awarded and still be eligible for
reimbursement, there is no authority under contracts outside of ratification.2

        The contract indicates that equipment purchased for this job will be part of the monthly
rate charged by the contractor and will remain with the contractor upon completion of the
contract. The Statement of Work specifies that, "Any such equipment purchased as a part of this
contract shall be owned by the CBG at the termination of the contract." We found that the
program lead is under the impression that some of the equipment will be retained by the
government. While retention of the equipment may be allowable for grants, it is considered
government property under a contract.3

        Item 4 of the Statement of Work, incorporated as an attachment to the contract, indicates
that the cost of equipment purchased for this job is included in the monthly intern price used to
establish the amount of Contract Line Item Number (CLIN) 1. An equipment charge is also
included in CLIN 2, and presumably the equipment is acquired using government funds. This

1
  Minimal Compliance with New Safeguards for Time-and-Material Contracts for Commercial Services and Safeguards Have 

Not Been Applied to GSA Schedules Program. June 2009, GAO-09-579. 

2
  E.g,. 2 C.F.R. § 215.25(e)(1); 43 C.F.R. § 12.934; 48 C.F.R. § 1.602-3.

3
  48 C.F.R. § 52.245-1. 


                                                                                                                         2
could lead to double billing, because equipment is included in the labor rates and also billed
separately.

        The amount of the monthly intern price times the total intern months of performance does
not equal the amount obligated under Contract Line Item Number (CLIN) 1 for trained native
seed collection interns. The reimbursable travel, seed collection equipment, and shipping
expense does not equal the amount obligated for the CLIN 2. The contracting officer indicated
the narrative in the SF 1449 and the contract attachments are correct. While the total obligated
amount of the contract is correct, the contracting officer recorded the amounts for each CLIN
incorrectly. The contract should be modified accordingly.

Recommendations

We recommend that BLM:

1.	   Determine whether the contract is firm-fixed-price or time and materials and execute the
      contract accordingly;

2.	   Verify whether services were performed prior to the obligation of the funds and contract
      award, and, if necessary, take actions to address the issue;

3.	   Perform a modification to correct the mathematical error relating to the allocation of costs
      for CLIN 1 and CLIN 2 and address any double billings for equipment; and

4.	   Consult with the Office of the Solicitor to determine the appropriate action regarding
      ownership of property acquired using government funds.

cc: 	 Deputy Secretary, Department of the Interior
      Director, Bureau of Land Management
      Assistant Secretary, Policy, Management, and Budget
      Director, Office of Acquisition and Property Management
      Acting Director, Office of Financial Management
      Recovery Coordinator, Bureau of Land Management
      Department GAO/ OIG Audit Liaison
      Audit Liaison, Office of the Secretary
      Audit Liaison, Bureau of Land Management




                                                                                                     3
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in 

            government concern everyone: Office

           of Inspector General staff, Departmental

            employees, and the general public. We 

               actively solicit allegations of any

           inefficient and wasteful practices, fraud, 

                and mismanagement related to 

            Departmental or Insular Area programs 

                and operations. You can report

               allegations to us in several ways.




By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                     800-424-5081
                    Washington Metro Area                 703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
